U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

May 4, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Deandre Joseph Warren v. United States of America,
S.Ct. No. 20-7742

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 9,
2021, and placed on the docket on April 14, 2021. The government’s response is due on May
14, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 14, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7742
WARREN, DEANDRE JOSEPH
USA

SAMUEL OWEN CROSS
FEDERAL PUBLIC DEFENDER FOR THE
NORTHERN AND SOUTHERN DISTRICT OF
IOWA
222 THIRD AVE. SE
STE. 290
CEDAR RAPIDS, IA 52401
319-363-9540
SAM_CROSS@FD.ORG

